October 29, 2020
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St. NE
Washington, DC 20543
Re: No. 19-351, Federal Republic of Germany, et al. v. Philipp, et al. and No.
18-1447, Republic of Hungary, et al. v. Simon, et al.
Dear Clerk Harris:
In accordance with Rule 32(3) of the Rules of the Supreme Court of the United
States, amici curiae the World Jewish Congress, Commission for Art Recovery, and
Ambassador Ronald S. Lauder submit this proposal to lodge certain non-record
materials with the Court.
These cases concern in part whether takings that took place during the Nazi
regimes in Germany and Hungary violated international law, such that Petitioners
are not immune from suit in a U.S. court pursuant to the Foreign Sovereign
Immunities Act, 28 U.S.C. § 1605(a)(3). Among the issues now briefed in both cases
is the proper historical perspective from which those events and the applicable law
should be viewed.
In support of the brief filed with this Court by the undersigned amici curiae,
Ambassador Lauder has prepared a brief statement, based upon his decades of
commitment to representing the interests of Jews and Jewish communities
throughout the world. His statement underscores the scale and devastation of the
theft and expropriation utilized as part of the Nazis’ genocidal campaign in Europe
and the connection between genocide and the takings, particularly with respect to art
and cultural objects such as the collection of artifacts at issue in Philipp. Ambassador
Lauder’s statement also provides information regarding the importance of the
Holocaust Expropriated Art Recovery Act in developing U.S. policy regarding
genocide-related takings – a statute which he strongly supported and led efforts to
pass, including presenting testimony to Congress. The statement will therefore aid
the Court in deciding the issues before it regarding the Nazi era and its proper
historical context.

October 29, 2020
Page 2 of 2

Undersigned amici will promptly deliver a copy of the statement if the Court
approves. Thank you for your time and assistance in this matter.
Very truly yours,
/s/ Thomas R. Kline
Thomas R. Kline
tom@culturalheritagepartners.com
General: 202-567-7594
Direct: 240-899-3205
Counsel for amici curiae the World Jewish Congress,
Commission for Art Recovery, and Ambassador Ronald S.
Lauder
cc:

Counsel of record

